CERTIFICATE OF SERVICE
The undersigned hereby certifies that three true and accurate copies of
PETITION FOR WRIT OF CERTIORARI
were mailed, postage prepaid, this 7th day of July, 2020 to:
David E Schrock
Scheldrup Blades
Attorneys for Defendants Matthew
Tiedt and Kyle Shores
PO Box 36
Cedar Rapids, IA 52406-0036
Email: dschrock@scheldruplaw.com
Jeffrey C. Peterzalek
Assistant Attorney
General Attorneys for
Defendants
Dan Schaefer and James E.
Dickinson Hoover Building, 2nd
Floor
1305 East Walnut
Des Moines, IA 50319
Email to: jpeterz@ag.state.ia.us

Billy D. Fleshner, pro se
P.O. Box 84137
Sioux Falls, SD 57118
Pro se Petitioner

